TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Office of Disclosure Continues to
                  Improve Upon Its Responses to Taxpayers’
                       Requests Under the Freedom of
                               Information Act



                                       September 4, 2009

                              Reference Number: 2009-30-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 4, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Disclosure Continues to Improve
                              Upon Its Responses to Taxpayers’ Requests Under the Freedom of
                              Information Act (Audit # 200930019)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing, based on the Freedom
 of Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code
 (I.R.C.) Section (§) 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive records
 were not available.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied taxpayers’ written requests for tax account information.
 We are also required to include the results in one of our Semiannual Reports to Congress. This
 is our tenth review of denials of FOIA, Privacy Act of 1974,3 and I.R.C. § 6103 requests.

 Impact on the Taxpayer
 The IRS must ensure that the provisions of the FOIA, the Privacy Act, and I.R.C. § 6103 are
 followed, particularly because errors can violate taxpayer rights and result in improper
 disclosures of tax information. The IRS has made significant improvement over the past
 10 years in the timeliness of responses to FOIA and Privacy Act requests; however, in
 1.3 percent of FOIA and Privacy Act requests we reviewed, the IRS improperly withheld


 1
   5 U.S.C.A. § 552 (2008).
 2
   I.R.C. § 6103 (2009).
 3
   5 U.S.C. § 552a (2008).
                       The Office of Disclosure Continues to Improve Upon
                          Its Responses to Taxpayers’ Requests Under
                                 the Freedom of Information Act


information from taxpayers. When projected to the population, our sample results indicate that
57 taxpayers may have been denied information under the FOIA and/or Privacy Act in Fiscal
Year 2008. This is a potential violation of taxpayer rights because tax account information was
available and was not provided to taxpayers.

Synopsis
The IRS continued to improve the accuracy and completeness of its responses to requests for
information covered by the FOIA. While improvement was noted, management needs to ensure
that disclosure personnel continue to follow required procedures on all requests. In 1.3 percent
(1 of 80 cases) of the FOIA/Privacy Act cases we reviewed, information was improperly
withheld from the requestors. The error occurred mainly because of inadequate research or
simple oversight by Disclosure office personnel. The IRS adhered to legal requirements under
I.R.C. § 6103 in the sample of 77 cases we reviewed.
Since Fiscal Year 2000, the IRS has made significant improvement in responding timely to
FOIA and Privacy Act requests. For example, responses to only 1 (1.3 percent) of the 80 cases
in our sample were untimely. In our audits over the previous 9 years, the percentages of
untimely responses ranged from 1.2 percent to 43.5 percent. The increase in responsiveness
may, in part, be due to the continued decrease in the numbers of FOIA and Privacy Act cases
received during Fiscal Year 2008 compared to Fiscal Year 2007 and the prior years this review
has been conducted.

Response
Although we made no recommendations in this report, we did provide IRS officials an
opportunity to review the draft report. IRS management did not provide us with any report
comments.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                    2
                                 The Office of Disclosure Continues to Improve Upon
                                    Its Responses to Taxpayers’ Requests Under
                                           the Freedom of Information Act




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Continues to Reduce Its Inventory
          Backlog .........................................................................................................Page 4
          The Percentage of Improperly Denied Freedom of Information
          Act/Privacy Act Requests for Information Has Decreased...........................Page 5
          The Number of Freedom of Information Act and Privacy Act
          Cases Not Responded to Timely Has Remained Constant ...........................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
         The Office of Disclosure Continues to Improve Upon
            Its Responses to Taxpayers’ Requests Under
                   the Freedom of Information Act




                   Abbreviations

FOIA         Freedom of Information Act
FY           Fiscal Year
I.R.C.       Internal Revenue Code
IRS          Internal Revenue Service
                           The Office of Disclosure Continues to Improve Upon
                              Its Responses to Taxpayers’ Requests Under
                                     the Freedom of Information Act




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code.4
The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal         The FOIA requires agencies
Government agencies to make records available to the public       to make records of the
upon request unless specifically exempted. Information that is      Federal Government
“specifically exempted from disclosure by statute” is one of    available to the public upon
                                                                request unless specifically
the exemptions. Internal Revenue Code (I.R.C.)                           exempted.
Section (§) 6103 is an example of such a statute; it protects
the confidentiality of tax returns and return information.
Records or information compiled for law enforcement purposes are also exempt from disclosure
under the FOIA.
The Privacy Act of 19745 prohibits Federal Government agencies from relying on any
exemption in the Privacy Act to withhold records that are otherwise available to an individual
under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow the taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirements for
this audit are in Section (§) 1102 (d)(3)(A) of the statute.
2
  Internal Revenue Code § 6103 (2009).
3
  26 U.S.C.
4
  Freedom of Information Act, 5 U.S.C.A. § 552 (2008).
5
  U.S.C. § 552a (2008).
                                                                                                          Page 1
                          The Office of Disclosure Continues to Improve Upon
                             Its Responses to Taxpayers’ Requests Under
                                    the Freedom of Information Act



IRS processing and reporting of FOIA cases
Within the IRS, the Small Business/Self-Employed Division Office of Communications, Liaison,
and Disclosure (through its Governmental Liaison and Disclosure Branch) is responsible for
ensuring compliance with the FOIA, the Privacy Act, and I.R.C. § 6103 is timely. The Office of
Disclosure within the Governmental Liaison and Disclosure Branch sets policy and issues
instructions, guidelines, and procedures to ensure compliance with the disclosure statutes.
The Disclosure offices within the Small Business/Self-Employed Division processed the FOIA
and Privacy Act requests and the I.R.C. § 6103 requests received by the IRS through
September 2008. In its FOIA Annual Report for Fiscal Year (FY) 2008, the IRS reported that a
total of 15,590 FOIA/Privacy Act cases were processed. This represents a decrease of 15 percent
from the 18,289 FOIA/Privacy Act cases processed during FY 2007. The IRS attributes this
decrease to:
    •   A decrease in the number of frivolous requests.
    •   An increase in IRS employee awareness of what types of documents can be released to
        taxpayers without formal FOIA/Privacy Act requests.
    •   Taxpayers being able to receive more information from IRS web sites without having to
        make formal requests.
According to the United States Department of the Treasury Freedom of Information Act Annual
Report to the Attorney General for Fiscal Year 2008, the IRS denied or partially denied
information to requestors in 2,376 (15.2 percent) of the 15,590 FOIA/Privacy Act cases
processed in FY 2008. It advised requestors that there were no records responsive to requests in
2,300 (14.8 percent) of the 15,590 cases. The remaining cases were either granted in full or
closed for miscellaneous reasons, such as the request was improper or the request was
withdrawn.

Audit limitations and standards
Individual IRS Disclosure offices or other IRS offices having custody of the records processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Disclosure offices. Disclosure offices used the IRS Electronic-Disclosure Information
Management System6 to track requests made under both the FOIA and the Privacy Act for
FY 2008. Requests made under I.R.C. § 6103 that were received and processed by IRS offices
other than Disclosure offices are neither controlled on the Electronic-Disclosure Information
Management System nor otherwise inventoried. Consequently, the volume of these requests is


6
  The primary automated information system used by Governmental Liaison and Disclosure Branch staff for
inventory tracking, work planning, statistical management reports, daily time tracking, etc.
                                                                                                          Page 2
                       The Office of Disclosure Continues to Improve Upon
                          Its Responses to Taxpayers’ Requests Under
                                 the Freedom of Information Act



not known. As a result, we can statistically sample only the I.R.C. § 6103 requests processed
directly by the IRS Disclosure offices and tracked on the Electronic-Disclosure Information
Management System.
Beginning in February 2006, the responsibility for processing some requests for I.R.C. § 6103
tax compliance checks and transcripts was transferred from the Small Business/Self-Employed
Division Disclosure offices to the Wage and Investment Division Return and Income
Verification Services Units. The Small Business/Self-Employed Division continues to process
the FOIA and Privacy Act requests for information. The transfer of responsibility for processing
of tax compliance checks and transcripts to the Return and Income Verification Services Units
resulted in an increase in our scope limitation for this and future years’ audits because the Wage
and Investment Division does not record the I.R.C § 6103 cases on the Electronic-Disclosure
Information Management System. We reviewed only those requests processed by the Small
Business/Self-Employed Division Disclosure offices that were denied during the period
October 1, 2007, through September 30, 2008.
During this 12-month period, IRS Disclosure offices processed approximately 13,847 requests
made under I.R.C. § 6103. We estimated that the Disclosure offices denied information, or told
requestors that records were not available, for approximately 33 percent of I.R.C. § 6103
requests (approximately 4,576 requests). The remaining requests were granted in full or
information on the disposition was not available.
This review was performed at the Small Business/Self-Employed Division Governmental
Liaison and Disclosure Branch in New Carrollton, Maryland, during the period January through
June 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 3
                            The Office of Disclosure Continues to Improve Upon
                               Its Responses to Taxpayers’ Requests Under
                                      the Freedom of Information Act




                                      Results of Review

Overall, the IRS continued to reduce its inventory backlog and improved its service to persons
who requested information under the FOIA/Privacy Act based on the sample of cases we
reviewed. The IRS improperly withheld information from requestors in only 1 (1.3 percent) of
the 80 FOIA/Privacy Act cases reviewed. In addition, the IRS adhered to legal requirements
under I.R.C. § 6103 in the sample of 77 cases we reviewed. We noted no exceptions in the
77 I.R.C. § 6103 cases. The Disclosure offices responded timely to the requestors in all but one
case.

The Internal Revenue Service Continues to Reduce Its Inventory
Backlog
Ultimately, the IRS relies on its disclosure personnel to ensure requests under the FOIA are
handled timely and in accordance with laws and regulations. At the top of the agency, a broad
policy statement and the Internal Revenue Manual provide guidance nationwide to disclosure
personnel. The policy statement, among other things, affirms the IRS commitment to full
compliance with the FOIA and administering it in a manner consistent with “the fundamental values
held by our society, including public accountability, safeguarding national security, enhancing the
effectiveness of law enforcement agencies and the decision-making processes, protecting sensitive
business information, and protecting personal privacy.”
Besides providing assurances that FOIA requests are handled timely and in accordance with laws
and regulations, the IRS continues in its efforts in carrying out its responsibilities under the
Government-wide Improving Agency Disclosure of Information initiative. While data are not
available on the precise impact the initiative is having on improving the disclosure of
information, statistics from the Disclosure office show the IRS has continued to improve in its
reduction of the backlog of FOIA requests. The goal of the IRS is to reduce its backlog by
10 percent or to 298 cases this year. On September 30, 2008, 331 cases were in backlog, and as
of May 31, 2009, there were 202 cases in backlog. This represents a 43 percent decrease in
backlog since the beginning of FY 2009.7 This is particularly important because the initiative is
designed to address the primary reason response time periods are not met under the FOIA.
Figure 1 shows the reduction of backlogged FOIA requests from FY 2007 through
FY 2009.

7
  This percentage was calculated by taking the difference between the 331 cases in the beginning inventory and
subtracting 202 cases in inventory as of May 31, 2009, (129) and dividing it by 298, the goal for FY 2009, which is
.4328 or 43%. This comparison is to reflect the level of backlog as compared to the original goal set at the
beginning of FY 2009.
                                                                                                            Page 4
                                                       The Office of Disclosure Continues to Improve Upon
                                                          Its Responses to Taxpayers’ Requests Under
                                                                 the Freedom of Information Act



                      Figure 1: Reduction of Backlogged FOIA Requests


                                                       1000

                                                       900

                                                              Goal
                                                       800
                       Number of Backlogged Requests




                                                              949
                                                       700

                                                       600

                                                                               Goal
                                                       500
                                                                               605
                                                       400
                                                                     Actual
                                                                      545
                                                       300
                                                                                      Actual
                                                                                                  Goal
                                                       200
                                                                                       331
                                                                                                  298
                                                                                                         Actual
                                                       100                                                202

                                                         0
                                                              FY 2007         FY 2008          FY 2009 (as of
                                                                                                  5/31/09)



                      Source: IRS Disclosure office.

The Percentage of Improperly Denied Freedom of Information
Act/Privacy Act Requests for Information Has Decreased
The IRS continued to improve the accuracy and completeness of its responses to persons who
requested information under the FOIA/Privacy Act based on the sample of cases we reviewed.8
Figure 2 shows the percentages of improperly withheld FOIA/Privacy Act and I.R.C. § 6103
requests we have reported since FY 2000. While improvement was noted, management needs to
ensure that disclosure personnel continue to follow required procedures on all requests. The IRS
improperly withheld information from requestors in 1 (1.3 percent) of the 80 FOIA/Privacy Act


8
  We selected our sample of 80 cases for audit review of denials of FOIA/Privacy Act requests from a total
population of 4,361 cases closed during FY 2008 that either were fully denied, were partially denied, or for which
no records were found to be responsive to the requests. The total of 4,361 cases includes 2,299 nonresponsive
closures plus 2,062 cases denied or partially denied. The full 2,376 cases, as stated in the United States Department
of Treasury Freedom of Information Act Annual Report to the Attorney General for Fiscal Year 2008, were not used
due to filters identifying only cases denied for FOIA exemptions (b)(7) or (b)(3) in conjunction with I.R.C. § 6103
(which was our criterion).

                                                                                                                  Page 5
                                                                      The Office of Disclosure Continues to Improve Upon
                                                                         Its Responses to Taxpayers’ Requests Under
                                                                                the Freedom of Information Act



cases. When projected to the population, our sample results indicate that 57 taxpayers might
have been denied information under the FOIA and/or Privacy Act in FY 2008. The IRS adhered
to legal requirements under I.R.C. § 6103 in the sample of 77 cases we reviewed.
We analyzed the 1 FOIA/Privacy Act case with improper withholdings and determined the types
of information improperly withheld have remained relatively consistent with the types of
information identified as improperly withheld during our previous audit reviews. The most
common types of information withheld were miscellaneous IRS forms and documents associated
with tax transcript information.
Errors occurred mainly because of inadequate research or simple oversight by the Disclosure
office caseworkers. For the one FOIA case, the Disclosure office caseworkers either did not
conduct complete research or stated information was not available when it was readily available.
   Figure 2: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings

                                          16
                                                                                                                                14.6%                                       14.5%

                                          14
                                                                                                12.2%
                                          12
         Percentage of Improper Denials




                                                                      10.7% 10.6%

                                                                                                               9.3%
                                          10         8.8%

                                                                                                    7.4%                                 7.1%
                                           8                                    7.0%
                                                                6.3%                                                                                       6.1%

                                           6
                                                                                                                      4.4%                                             4.6%
                                                                                                                                                                                          3.7%
                                           4                                                                                                       3.1%
                                                                                                                                                                    2.3%

                                           2                                                                                                                                                                1.3%
                                                                                                                                                                                                    0.0%
                                                                                                                                                                                                                  0.0%
                                           0
                                                         00                01              02             03               04              0   5               06               07             08            09
                                                    20                20              20                20            20                20                20               20             20               20
                                               FY                FY              FY                FY            FY                FY                FY               FY             FY               FY
                                                              Fiscal Year the Treasury Inspector General for Tax Administration Issued the Report
                                                                                                        FOIA/Privacy Act                            I.R.C. 6103


       Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000-2009.
       Percentages were rounded to the nearest tenth.

Because the IRS improperly denied available records, taxpayers’ rights could have been violated,
taxpayers could have been burdened unnecessarily, and the IRS may have incurred additional
costs through the appeals process. For FOIA requests, if the IRS reports that no applicable
                                                                                                                                                                                                                         Page 6
                        The Office of Disclosure Continues to Improve Upon
                           Its Responses to Taxpayers’ Requests Under
                                  the Freedom of Information Act



records exist, or denies any part of the request, the requestor may administratively appeal the
IRS’ decision. If the IRS denies the administrative appeal, the requestor has the right to appeal
the denial in court. Preparing and processing the appeals would place additional burden on the
requestor and additional costs on the IRS.
During FY 2008, the IRS processed 247 FOIA/Privacy Act appeals. The Office of Appeals
completely upheld the Disclosure office’s decision to deny records in 214 cases, partially
reversed 1 denial, and completely reversed 2 denials. The remaining 30 FOIA cases were closed
for other reasons. In the one FOIA case in which the IRS improperly withheld records in our
sample, the requestor did not appeal. Had this taxpayer used the appeals process, the improper
determinations might have been discovered and reversed.
We also identified two cases where an unauthorized disclosure may have been made to the
requestor of the documents. While this was not the focus of our review, we provided this
information to IRS management for appropriate action.

The Number of Freedom of Information Act and Privacy Act Cases Not
Responded to Timely Has Remained Constant
The FOIA requires Federal Government agencies to respond within 20 business days of the
receipt of a request or, if the 20 days are not sufficient, to notify the requestor of the reason why
the request cannot or will not be filled. If Federal Government agencies are unable to respond to
the request within the time limit, they are required to immediately notify the requestor of the
reasons why they are unable to respond and of the requestor’s right to appeal.
The due date for a FOIA request is revised when the IRS sends a letter to the requestor
exercising its right for an automatic 10-day extension and/or requesting a voluntary extension in
excess of the initial statutory 20-day period for FOIA requests. The requestor must agree to the
voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A case is untimely when the IRS responds to the requestor after the due
date. For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s
request.
Since FY 2000, the IRS has made significant improvement in the timeliness of responses to
FOIA/Privacy Act requests. Figure 3 shows the percentages of untimely cases we have reported
since FY 2000.




                                                                                              Page 7
                                                           The Office of Disclosure Continues to Improve Upon
                                                              Its Responses to Taxpayers’ Requests Under
                                                                     the Freedom of Information Act



            Figure 3: Comparison of Untimely FOIA/Privacy Act Responses

                                                   50.0%
                Percentage of Untimely Responses




                                                                                    43.5%
                                                   45.0%
                                                   40.0%
                                                            33.8%
                                                   35.0%
                                                   30.0%
                                                   25.0%                    22.7%
                                                                    20.1%
                                                   20.0%
                                                   15.0%                                    13.1%

                                                   10.0%                                            7.3%
                                                    5.0%                                                   2.3%   1.2%   1.3%
                                                    0.0%
                                                             FY      FY      FY      FY      FY      FY     FY     FY     FY
                                                            2000    2001    2002    2003    2005    2006   2007   2008   2009
                                                                       Fiscal Year in Which the Report Was Issued

             Source: Treasury Inspector General for Tax Administration audit reports issued in FYs 2000-2009.
             Percentages were rounded to the nearest tenth.91

The Disclosure offices did not respond to the requestor in the time required by law for only
1 (1.3 percent) of the 80 FOIA/Privacy Act cases. The response was late because the IRS was
conducting additional research which was not completed by the response due date. Based on our
sample results, we estimate that, from the population of 4,361 cases closed during the period
October 1, 2007, through September 30, 2008, there were 57 FOIA/Privacy Act requests not
processed timely. While there is a slight increase in the overall percentage of untimely responses
from last year’s review, we only identified one case last year where the Disclosure offices did
not respond timely. The increase in responsiveness may, in part, be due to the continued
decrease in the numbers of FOIA and Privacy Act cases received during FY 2008 compared to
FY 2007 and the prior years this review has been conducted.




9
  We did not evaluate the timeliness of responses to FOIA and Privacy Act requests in the FY 2004 audit because
the IRS was in the process of implementing our recommendations to improve timeliness.
                                                                                                                                Page 8
                          The Office of Disclosure Continues to Improve Upon
                             Its Responses to Taxpayers’ Requests Under
                                    the Freedom of Information Act



                                                                                              Appendix I


         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing, based on the FOIA1 exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) or by replying that responsive
records were not available. To accomplish this objective, we:
I.      Identified if any changes to the policies, operating procedures, systems, documents/files,
        risks, laws, and regulations related to the receipt, disposition, and resolution or denials of
        requests for information under the FOIA occurred since last year’s review.
II.     Identified the management controls that are in place to ensure the timely and proper
        receipt, disposition, and resolution or denials of requests for information under the FOIA.
III.    Determined whether the IRS properly adhered to statutory FOIA and Privacy Act
        of 19742 requirements and to procedural requirements.
        A. Obtained an extract from the Electronic-Disclosure Information Management System3
           for the period October 1, 2007, through September 30, 2008, and identified
           4,361 FOIA and Privacy Act cases closed as denied or partially denied based on
           FOIA exemption (b)(3) in conjunction with I.R.C. § 6103, FOIA exemption (b)(7), or
           for which the IRS replied that responsive records did not exist. We validated the data
           extract by performing specialized queries.
        B. Designed an attribute sample based on a 90 percent confidence level, an expected
           error rate of 7.05 percent, and an estimated precision of +5 percent. Based on these
           parameters, a statistically valid sample size was 71 cases. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or for which requestors were told records were not available. We
           increased the attribute sample size from 71 cases to 81 cases to account for the
           possibility that some case files would be unavailable. For the 81 randomly selected
           cases requested, we received 80 case files.


1
  5 U.S.C.A. § 552 (2008).
2
  Privacy Act of 1974, 5 U.S.C. § 552a (2008).
3
  The primary automated information system used by Governmental Liaison and Disclosure Branch staff for
inventory tracking, work planning, statistical management reports, daily time tracking, etc.
                                                                                                          Page 9
                            The Office of Disclosure Continues to Improve Upon
                               Its Responses to Taxpayers’ Requests Under
                                      the Freedom of Information Act



           C. Reviewed the 80 sampled cases and determined whether the decision to withhold
              information was appropriate, the record search was adequate, and the determination
              was made in a timely manner.
           D. Projected the number of improper withholdings in the range of 3 to 253 (.06 percent
              to 5.79 percent) for FOIA/Privacy Act cases that were partially or fully denied based
              on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
              exemption (b)(7), or for which requestors were told records were not available. The
              projection was made using attribute sampling, with a 90 percent confidence level and
              an actual error rate of 1.3 percent. As a result, the actual precision factor was
              +1.59 percent. The accuracy of our projection was reviewed and confirmed by our
              contracted statistician.
           E. Projected the number of untimely determinations in the range of 3 to 253 (.06 percent
              to 5.59 percent) for FOIA/Privacy Act cases that were partially or fully denied based
              on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
              exemption (b)(7), or for which requestors were told records were not available. The
              projection was made using attribute sampling, with a 90 percent confidence level and
              an actual error rate of 1.3 percent. As a result, the actual precision factor was
              +1.59 percent. The accuracy of our projection was reviewed and confirmed by our
              contracted statistician.
           F. Discussed all exception cases with the FOIA Senior Tax Law Specialist.
           G. Determined whether the requestor appealed the denial for the exception case
              identified.
           H. Reviewed the United States Department of the Treasury Freedom of Information Act
              Annual Report to the Attorney General for Fiscal Year 2008 showing various
              statistics for FOIA/Privacy Act cases, including appeals and closures. This
              information was not independently verified because the accuracy of these statistics
              did not affect the accomplishment of our audit objectives.
IV.        Determined whether the IRS Disclosure offices adhered to legal requirements when
           denying written requests received from taxpayers under I.R.C. § 6103.4
           A. From the national extract obtained for Step III. A., identified 13,847 I.R.C. §§ 6103
              (c) and (e) requests.
           B. Designed an attribute sample based on a 90 percent confidence level, an expected
              error rate of 7.69 percent, and an estimated precision of +5 percent. Based on these
              parameters, the size of the statistically valid sample was 77 cases. This sampling
              methodology was chosen because it would allow us to project the number of cases

4
    I.R.C. § 6103 (2009).
                                                                                             Page 10
                The Office of Disclosure Continues to Improve Upon
                   Its Responses to Taxpayers’ Requests Under
                          the Freedom of Information Act



   with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
   requests for which information was partially or fully denied or for which the IRS
   replied that responsive records did not exist. We selected a larger sample size to
   account for the possibility that some case files would be unavailable.
C. Selected a random sample of 400 of the 13,847 I.R.C. §§ 6103 (c) and (e) closed
   cases, requested case files for 400 cases from the IRS, and received 233 case files.
   We determined that 77 (33 percent) of the 233 cases included instances in which
   information was partially or fully denied or in which the IRS replied that responsive
   records did not exist.
D. Reviewed the 77 cases and determined whether the decision to withhold the
   information based on I.R.C. § 6103 was appropriate.
E. Discussed all exception cases with the FOIA Senior Tax Law Specialist.




                                                                                  Page 11
                      The Office of Disclosure Continues to Improve Upon
                         Its Responses to Taxpayers’ Requests Under
                                the Freedom of Information Act



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Donna Saranchak, Lead Auditor
William Tran, Senior Auditor
Erlinda Foye, Auditor




                                                                                      Page 12
                      The Office of Disclosure Continues to Improve Upon
                         Its Responses to Taxpayers’ Requests Under
                                the Freedom of Information Act



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Governmental Liaison and Disclosure, Small Business/Self-Employed Division
SE:S:CLD:GLD
Chief, Disclosure Branch, Small Business/Self-Employed Division SE:S:CLD:GLD:D
Freedom of Information Act Senior Tax Law Specialist SE:S:CLD:GLD:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 13
                             The Office of Disclosure Continues to Improve Upon
                                Its Responses to Taxpayers’ Requests Under
                                       the Freedom of Information Act



                                                                                Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 57 responses to FOIA1 or Privacy Act of 19742 requests for
    which information was improperly withheld during the 12-month period October 1, 2007,
    through September 30, 2008 (see page 5).

Methodology Used to Measure the Reported Benefit:
The attribute sample of 80 cases was randomly selected from the universe of
4,361 FOIA/Privacy Act requests closed nationally during the period October 1, 2007, through
September 30, 2008, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. Section (§) 6103,3 and/or FOIA exemption (b)(7) cited as one of the
reasons for withholding information, or 2) a request for which the IRS replied that responsive
records did not exist.
We found 1 (1.3 percent) case in which the IRS improperly withheld information requested by
the taxpayer. We arrived at the estimate by multiplying the number of requests closed as 1) or 2)
as listed in the prior paragraph by the error rate of cases identified in our sample
(4,361 * 1.3 percent error rate = 57 cases). A case was considered an “error” if a Disclosure
office improperly withheld information that was available and could have been released under
the FOIA and/or the Privacy Act.

Type and Value of Outcome Measure:
•   Taxpayer Rights – Potential; 57 FOIA or Privacy Act requests that were not processed in a
    timely manner during the 12-month period October 1, 2007, through September 30, 2008
    (see page 7).




1
  5 U.S.C.A. § 552 (2008).
2
  5 U.S.C. § 552a (2008).
3
  I.R.C. § 6103 (2009).
                                                                                         Page 14
                       The Office of Disclosure Continues to Improve Upon
                          Its Responses to Taxpayers’ Requests Under
                                 the Freedom of Information Act



Methodology Used to Measure the Reported Benefit:
The attribute sample of 80 cases was randomly selected from the universe of
4,361 FOIA/Privacy Act requests closed nationally during the period October 1, 2007, through
September 30, 2008, as 1) a full or partial denial with either FOIA exemption (b)(3), in
conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for
withholding information, or 2) a request for which the IRS replied that responsive records did not
exist.
We identified only 1 (1.3 percent) of 80 cases reviewed as having a response issued after the due
date. We arrived at the estimate by multiplying the number of requests closed as 1) or 2) as
listed in the prior paragraph by the percentage of untimely responses identified in our sample
(4,361 * 1.3 percent error rate = 57 cases).




                                                                                          Page 15
